        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Report
South Carolina Energy Office –
Energy Efficiency and Conservation
Block Grant Program Funds
Provided by the American Recovery
and Reinvestment Act of 2009




OAS-RA-13-21                               May 2013
                                 Department of Energy
                                   Washington, DC 20585

                                         May 14, 2013


MEMORANDUM FOR THE PROGRAM MANAGER, WEATHERIZATION AND
               INTERGOVERNMENTAL PROGRAM, OFFICE OF ENERGY
               EFFICIENCY AND RENEWABLE ENERGY


FROM:                    Jack Rouch, Director
                         Central Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Examination Report on "South Carolina Energy
                         Office – Energy Efficiency and Conservation Block Grant Program
                         Funds Provided by the American Recovery and Reinvestment Act of
                         2009"

BACKGROUND

The attached report presents the results of an examination of the South Carolina Energy Office's
(SCEO) implementation of the American Recovery and Reinvestment Act of 2009 (Recovery
Act) Energy Efficiency and Conservation Block Grant (EECBG) Program. The Office of
Inspector General (OIG) contracted with an independent certified public accounting firm, Lani
Eko & Company, CPAs, PLLC (Lani Eko), to express an opinion on SCEO's compliance with
Federal and State laws, regulations and program guidelines applicable to the EECBG Program.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the EECBG
Program received about $3.2 billion to assist in implementing strategies to reduce fossil fuel
emissions, decrease total energy use of local governments, improve energy efficiency and create
jobs. The SCEO is responsible for operating the State of South Carolina's energy efficiency
programs and for administering EECBG Program funding. The SCEO received about $9.6
million that was allocated as block grants to units of local government and competitive grants
that support energy efficiency projects.

RESULTS OF AUDIT

Lani Eko expressed the opinion that SCEO complied in all material respects with the
aforementioned requirements and guidelines relative to the EECBG Program for the period
September 30, 2009 through December 31, 2011. There were no findings and recommendations
as a result of this examination.
                                                2


EXAMINATION-LEVEL ATTESTATION

Lani Eko conducted its examination in accordance with attestation standards established by the
American Institute of Certified Public Accountants as well as those additional standards
contained in Government Auditing Standards, issued by the Comptroller General of the United
States. The examination-level procedures included gaining an understanding of the SCEO's
policies and procedures and reviewing applicable EECBG Program documentation. The
procedures also included an analysis of activity progress, reimbursement drawdown requests, and
compliance with required reporting. Finally, an analysis of associated expenditure data was
conducted to test the allowability of payments.

The OIG monitored the progress of the examination and reviewed the report and related
documentation. Our review disclosed no instances in which Lani Eko, did not comply in all
material respects, with the attestation requirements. Lani Eko is responsible for the attached
report dated February 9, 2012, and the conclusions expressed in the report.

Attachment

cc: Deputy Secretary
    Acting Under Secretary for Energy
    Chief of Staff
                                 Attachment




EXAMINATION REPORT OF
SOUTH CAROLINA ENERGY
OFFICE

ENERGY EFFICIENCY AND
CONSERVATION BLOCK
GRANT PROGRAM RECOVERY
ACT FUNDS




Lani Eko & Company, CPAs, PLLC
                                                                                                  Attachment (continued)


                                               TABLE OF CONTENTS



INDEPENDENT ACCOUNTANT'S REPORT ..............................................................1


SECTION I. DESCRIPTION OF SOUTH CAROLINA ENERGY OFFICE
EECBG PROGRAM .........................................................................................................2


SECTION II. SUMMARY OF FINDINGS ....................................................................3
                                                                         Attachment (continued)




                               Independent Accountant’s Report

To the Inspector General,
U.S. Department of Energy:

We have examined the American Recovery and Reinvestment Act of 2009 Energy Efficiency
and Conservation Block Grant Program (EECBG Program) funds awarded by the U.S.
Department of Energy to the South Carolina Energy Office (SCEO) for the period September 30,
2009 through December 31, 2011. SCEO is responsible for operating the EECBG Program in
compliance with applicable Federal and State laws, regulations, and program guidelines. Our
responsibility is to express an opinion based on our examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants and the U.S. Government Accountability
Office; and, accordingly, included examining, on a test basis, evidence supporting management's
compliance with relevant Federal and State laws, regulations, and EECBG Program guidelines,
and performing such other procedures as we considered necessary in the circumstances. We
believe that our examination provides a reasonable basis for our opinion.

Because of inherent limitations in any internal control structure or financial management system,
noncompliance due to error or fraud may occur and not be detected. Also, projections of any
evaluation of compliance to future periods are subject to the risk that the internal control
structure or financial management system may become inadequate because of changes in
conditions or that the degree of compliance with the policies and procedures may deteriorate.

In our opinion, SCEO complied in all material respects, with the aforementioned requirements
and guidelines relative to EECBG Program funds awarded to SCEO for the period September 30,
2009 through December 31, 2011.




February 9, 2012
Alexandria, Virginia

                                                                                            1
                                                                        Attachment (continued)


                 SECTION I. Description of South Carolina Energy Office
                 Energy Efficiency and Conservation Block Grant Program


The American Recovery and Reinvestment Act of 2009 (Recovery Act) appropriated funding to
the Department of Energy (Department) to award formula-based grants to states, U.S. territories,
units of local government, and Indian tribes under the Energy Efficiency and Conservation Block
Grant (EECBG) Program. The EECBG Program was intended to develop, promote, implement,
and manage energy efficiency and conservation projects.

The Department awarded $9,593,500 to the State of South Carolina Energy Office (SCEO),
which is part of the State Budget and Control Board, for the State EECBG Program. SCEO
redistributed the funds to five areas: $5,942,726 for Local Government Energy Efficiency and
Conservation, $380,514 for Energy Efficiency and Conservation for Residential and Institutional
Buildings, $560,000 for Multi-tenant Metering Energy Efficiency Assessment, $50,500 for
Biodiesel and Ethanol Fuel Quality Assistance, and $1,740,128 for Energy Technical Assistance.
The balance of the award, $919,632, was allocated for the administration of remaining energy
efficiency conservation activities. In accordance with the terms of its award, SCEO is
responsible for the selection, approval, and monitoring of EECBG projects receiving Recovery
Act funds. These activities include determining the ability of selected projects to produce
sustainable programs that result in energy and emission reductions. For the period from
September 30, 2009 through December 31, 2011, SCEO reported that it had distributed
$6,190,779.62 to sub-recipients that included local governments, engineers, vendors, and
contractors.




                                                                                           2
                                                                        Attachment (continued)


                            SECTION II. Summary of Findings

There were no findings as a result of this examination; therefore, a formal management response
was not required. SCEO officials elected to waive the exit conference.




                                                                                           3
                                                                 IG Report No. OAS-RA-13-21


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                      http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
